 Department of Health and Human Services
                    OFFICE OF 

               INSPECTOR GENERAL 





TENNESSEE INCORRECTLY REPORTED 

   COSTS FOR INDIVIDUALS WITH 

INTELLECTUAL AND DEVELOPMENTAL 

          DISABILITIES





   Inquiries about this report may be addressed to the Office of Public Affairs at
                            Public.Affairs@oig.hhs.gov. 
                                           




                                                     Lori S. Pilcher

                                                Regional Inspector General 


                                                         April 2013

                                                       A-04-12-08016 

                        Office of Inspector General
                                         https://oig.hhs.gov



The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452, as amended, is
to protect the integrity of the Department of Health and Human Services (HHS) programs, as well as the
health and welfare of beneficiaries served by those programs. This statutory mission is carried out
through a nationwide network of audits, investigations, and inspections conducted by the following
operating components:

Office of Audit Services

The Office of Audit Services (OAS) provides auditing services for HHS, either by conducting audits with
its own audit resources or by overseeing audit work done by others. Audits examine the performance of
HHS programs and/or its grantees and contractors in carrying out their respective responsibilities and are
intended to provide independent assessments of HHS programs and operations. These assessments help
reduce waste, abuse, and mismanagement and promote economy and efficiency throughout HHS.

Office of Evaluation and Inspections
The Office of Evaluation and Inspections (OEI) conducts national evaluations to provide HHS, Congress,
and the public with timely, useful, and reliable information on significant issues. These evaluations focus
on preventing fraud, waste, or abuse and promoting economy, efficiency, and effectiveness of
departmental programs. To promote impact, OEI reports also present practical recommendations for
improving program operations.

Office of Investigations
The Office of Investigations (OI) conducts criminal, civil, and administrative investigations of fraud and
misconduct related to HHS programs, operations, and beneficiaries. With investigators working in all 50
States and the District of Columbia, OI utilizes its resources by actively coordinating with the Department
of Justice and other Federal, State, and local law enforcement authorities. The investigative efforts of OI
often lead to criminal convictions, administrative sanctions, and/or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to OIG, rendering
advice and opinions on HHS programs and operations and providing all legal support for OIG’s internal
operations. OCIG represents OIG in all civil and administrative fraud and abuse cases involving HHS
programs, including False Claims Act, program exclusion, and civil monetary penalty cases. In
connection with these cases, OCIG also negotiates and monitors corporate integrity agreements. OCIG
renders advisory opinions, issues compliance program guidance, publishes fraud alerts, and provides
other guidance to the health care industry concerning the anti-kickback statute and other OIG enforcement
authorities.
                         Notices 



    THIS REPORT IS AVAILABLE TO THE PUBLIC
              at https://oig.hhs.gov

 Section 8L of the Inspector General Act, 5 U.S.C. App., requires
 that OIG post its publicly available reports on the OIG Web site.

OFFICE OF AUDIT SERVICES FINDINGS AND OPINIONS

 The designation of financial or management practices as 

 questionable, a recommendation for the disallowance of costs 

 incurred or claimed, and any other conclusions and 

 recommendations in this report represent the findings and 

 opinions of OAS. Authorized officials of the HHS operating 

 divisions will make final determination on these matters.

                                        EXECUTIVE SUMMARY

  Tennessee calculated its payment rates for State-operated intermediate care facilities
  for individuals with intellectual and developmental disabilities in accordance with
  Federal requirements. However, Tennessee incorrectly reported expenditures to the
  Federal Government.

WHY WE DID THIS REVIEW

Tennessee’s payment rates for State-operated intermediate care facilities for beneficiaries with
intellectual and developmental disabilities (ICF-IDD) from July 1, 2009, through June 30, 2011
(State fiscal years (SFY) 2010 and 2011), were 178 to 285 percent higher than the average
payment rates for privately operated facilities. In addition, Tennessee was one of the States with
the highest per capita expenditures in the nation for ICF-IDDs during the same period. Previous
audits in other States identified excessive payment for beneficiaries with intellectual and
developmental disabilities (A-02-10-01027, A-02-11-01029, and A-02-10-01029).

The objective of our audit was to determine whether Tennessee calculated and reported its
payment rates for State-operated intermediate care facilities for beneficiaries with intellectual
and developmental disabilities in accordance with Federal requirements.

BACKGROUND

In Tennessee, the Bureau of TennCare (State agency) within the Tennessee Department of
Finance and Administration is the State agency responsible for administering the State’s
Medicaid program. The Tennessee Department of Intellectual and Developmental Disabilities
(DIDD) is the State agency responsible for providing services and support to Tennesseans with
intellectual and developmental disabilities. DIDD oversees State-operated ICF-IDDs, which
include State-operated and privately operated facilities with 30 or more beds.

The State submits to the Centers for Medicare & Medicaid Services (CMS) quarterly reports
summarizing its Medicaid ICF-IDD expenditures on the Quarterly Medicaid Statement of
Expenditures for the Medical Assistance Program, Form CMS-64 (CMS-64). CMS uses the
information on the CMS-64 to reimburse States for the Federal share of Medicaid expenditures.

WHAT WE FOUND

Tennessee calculated its payment rates in accordance with Federal requirements in SFYs 2010
and 2011. However, the State agency incorrectly reported costs on its CMS-64 for
reimbursement of services provided to beneficiaries with intellectual and developmental
disabilities in the category for nursing facility (line 3 on the CMS-64) instead of in the category
for ICF-IDD (lines 4a and 4b on the CMS-64). Nevertheless, this incorrect reporting did not
result in Tennessee receiving any overpayments from the Federal Government.

These reporting errors occurred because the State’s accounting systems did not properly identify
and separate the ICF-IDD public and private costs from the nursing facility general costs. In

Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         i
addition, the State agency did not have a process to reconcile the amounts reported on its CMS-
64s either to the monthly reports from the Medicaid Management Information System (MMIS)
or to the new State accounting system. As a result, the CMS-64 quarterly reports that Tennessee
originally filed were not an effective monitoring tool for expenditures for ICF-IDDs in
Tennessee.

Because of our review and findings, the State agency submitted a revised CMS-64 with a prior
period adjustment of $19,187,313 ($13,925,132 Federal share) to correctly report ICF-IDD
expenditures for SFYs 2010 and 2011. We did not review the CMS-64 reports for quarters prior
to or after our audit period.

WHAT WE RECOMMEND

We recommend that the State agency work with CMS to:

    •   update the Edison system to ensure that costs reported on the CMS-64 for State-operated
        and privately operated ICF-IDD providers for line 3 (Nursing Facility), line 4a (ICF-IDD
        – Public), and line 4b (ICF-IDD – Private) are correct and

    •   improve controls over CMS-64 accuracy and support by generating and maintaining
        monthly reports from the MMIS and by reconciling the MMIS reports to the accounting
        system that the State uses to prepare its CMS-64s.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency stated that it concurred with the findings
outlined in our draft report. It stated that incorrect mapping of the data led to expenditures
reported on incorrect lines in the CMS-64, but the total dollars reported were correct.
Additionally, it has rectified the observed issues and strengthened its controls over reconciling
the MMIS to the CMS-64.




Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         ii
                                                     TABLE OF CONTENTS

                                                                                                                                           Page

INTRODUCTION.................................................................................................................... 1

           Why We Did This Review ........................................................................................... 1

           Objective ....................................................................................................................... 1

           Background .................................................................................................................. 1
                 Tennessee’s Medicaid Program ......................................................................... 1
                 Tennessee’s Intermediate Care Facilities for Beneficiaries With
                   Intellectual and Developmental Disabilities .................................................. 2

           How We Conducted This Review ............................................................................... 2

FINDINGS ................................................................................................................................ 3

           Payment Rates Calculated in Accordance With Federal Requirements ................ 3

           Incorrectly Reported Costs ......................................................................................... 3

RECOMMENDATIONS......................................................................................................... 4

STATE AGENCY COMMENTS ........................................................................................... 4

APPENDIXES

           A: Audit Scope and Methodology.............................................................................. 5

           B: Federal Requirements ........................................................................................... 7

           C: Related Office of Inspector General Reports ...................................................... 9

           D: State Agency Comments........................................................................................ 10




Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                                                      iii
                                             INTRODUCTION

WHY WE DID THIS REVIEW

Tennessee’s payment rates for State-operated intermediate care facilities for beneficiaries with
intellectual and developmental disabilities (ICF-IDD) from July 1, 2009, through June 30, 2011
(State fiscal years (SFY) 2010 and 2011), were 178 to 285 percent higher than the average
payment rates for privately operated facilities. In addition, Tennessee was one of the States with
the highest per capita expenditures in the nation for ICF-IDDs during the same period. Previous
audits in other States identified excessive payment for beneficiaries with intellectual and
developmental disabilities (A-02-10-01027, A-02-11-01029, and A-02-10-01029).

OBJECTIVE

Our objective was to determine whether Tennessee calculated and reported its payment rates for
State-operated intermediate care facilities for beneficiaries with intellectual and developmental
disabilities in accordance with Federal requirements.

BACKGROUND

Tennessee’s Medicaid Program

In Tennessee, the Bureau of TennCare (State agency) within the Tennessee Department of
Finance and Administration is the State agency charged with responsibility for administering the
State’s Medicaid program. Tennessee’s Medicaid program provides health care for
approximately 1.2 million people and operates with an annual budget of approximately
$8 billion.

For SFYs 2010 and 2011, the State reported to the Centers for Medicare & Medicaid Services
(CMS) $439,502,336 ($327,157,494 Federal Share) in ICF-IDD expenditures for a variety of
services provided to beneficiaries with intellectual and developmental disabilities. During our
audit period, the State operated 3 ICF-IDDs with 30 or more beds and 17 small residential homes
located in community settings. The State agency reported Medicaid expenditures on behalf of
443 beneficiaries at these 20 facilities, totaling $255,759,031 ($190,480,037 Federal share). In
addition, to the State-operated facilities, Tennessee has 112 private small residential ICF-IDD
homes located in community settings. The State agency reported Medicaid expenditures on
behalf of 770 beneficiaries at these 112 private ICF-IDDs totaling $183,743,305 ($136,677,457
Federal share).

On January 15, 2011, responsibility for services regarding developmental disabilities was
transferred from the Tennessee Department of Mental Health to the Tennessee Department of
Intellectual and Developmental Disabilities (DIDD).

In Tennessee, Medicaid dollars are used to fund both institutional care and home and
community-based services for people with intellectual disabilities. Intermediate care facilities,
including State-operated developmental centers, provide institutional care. Having closed


Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         1
Arlington Developmental Center in October 2010, Tennessee now serves approximately 336
persons in the 2 remaining developmental centers: Clover Bottom in Nashville and Greene
Valley in Greeneville. The State also provides ICF-IDD services to approximately 68 persons in
smaller homes located in community settings. Private agencies also participate in the ICF-IDD
program and serve approximately 700 people across the State.

The State agency uses the Medicaid Management Information System (MMIS), a computerized
payment and information reporting system, to process and pay Medicaid claims. The State
submits to the CMS quarterly reports summarizing its Medicaid ICF-IDD expenditures on the
Quarterly Medicaid Statement of Expenditures for the Medical Assistance Program, Form CMS-
64 (CMS-64). CMS uses the information on the CMS-64 to reimburse States for the Federal
share of Medicaid expenditures.

Tennessee’s Intermediate Care Facilities for Beneficiaries With Intellectual and
Developmental Disabilities

In Tennessee, the DIDD maintains a system of supports and services for persons with intellectual
and developmental disabilities. ICF-IDDs provide 24-hour onsite assistance and training,
intensive clinical and direct-care services, supervised activities, and a variety of therapies.
Developmental disabilities include a variety of conditions that cause mental or physical
limitation (e.g., autism and cerebral palsy).

Tennessee’s payment rates for State-operated ICF-IDDs in SFYs 2010 and 2011 were 178 to 285
percent higher than the average payment rates for privately operated facilities. During this
period, the per-patient payment rate at the 20 State-operated facilities ranged from $794 to
$1,272 per day, an average payment rate of $969 per day.

In recent years, the State has taken steps to transition from large State-run institutions to smaller,
community-based homes. During this period, the per-patient payment rate at the 112 privately
operated facilities ranged from $172 to $868 per day, an average payment rate of $446 per day.

HOW WE CONDUCTED THIS REVIEW

We obtained and reviewed the ICF-IDD’s cost reports for SFYs 2010 and 2011 and recalculated
the Medicaid daily rates using the actual costs reported in the cost reports. We then compared
the number of patients, types of services, and payment rates for State-operated and privately
operated ICF-IDDs. We further compared expenditures and occupancy levels reported on the
cost reports received for the State-operated facilities to those of the privately operated facilities.
We also obtained and reviewed the State agency’s MMIS data for all ICF-IDD claims paid from
July 1, 2009, through June 30, 2011, and compared this information to the CMS-64s submitted to
CMS for quarters ending September 30, 2009, through June 30, 2011, to determine the Medicaid
reimbursement expenditures reported to CMS for ICF-IDD services.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions


Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         2
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.

Appendix A contains the details of our audit scope and methodology, and Appendix B lists the
Federal requirements related to payment rates and reporting requirements for ICF-IDDs.
Appendix C contains a list of related OIG reports.

                                                  FINDINGS

Tennessee calculated its payment rates in accordance with Federal requirements in SFYs 2010
and 2011. However, the State agency incorrectly reported costs on its CMS-64 for
reimbursement of services provided to beneficiaries with intellectual and developmental
disabilities in the category for nursing facility (line 3 on the CMS-64) instead of in the category
for ICF-IDD (lines 4a and 4b on the CMS-64). Nevertheless, this incorrect reporting did not
result in Tennessee receiving any overpayments from the Federal Government.

These reporting errors occurred because the State’s accounting systems did not properly identify
and separate the ICF-IDD public and private costs from the nursing facility general costs. In
addition, the State agency did not have a process to reconcile the amounts reported on its CMS-
64s either with the monthly reports from the MMIS or with the new State accounting system. As
a result, the CMS-64 quarterly reports that Tennessee originally filed were not an effective
monitoring tool for expenditures for ICF-IDDs in Tennessee.

Because of our review and findings, the State agency submitted a revised CMS-64 with a prior
period adjustment of $19,187,313 ($13,925,132 Federal share) to correctly report ICF-IDD
expenditures for SFYs 2010 and 2011. We did not review the CMS-64 reports for quarters prior
to or after our audit period.

PAYMENT RATES CALCULATED IN ACCORDANCE WITH FEDERAL
REQUIREMENTS

Although the payment rates for Tennessee’s State-operated ICF-IDDs are higher than those of
privately operated ICF-IDDs, they are calculated in accordance with Federal requirements. The
per diem rates are higher because of the higher costs to run these large, older facilities and
because the patients tend to be more medically fragile. In an attempt to reduce costs, DIDD is in
the process of closing these large State-operated facilities and, in their place, building several
smaller facilities similar to the privately run ICF facilities.

INCORRECTLY REPORTED COSTS

The State incorrectly reported some IDD costs in the category for nursing facility (line 3 on the
CMS-64) instead of in the category for ICF-IDD (line 4a and 4b on the CMS-64). These
reporting errors occurred because the State’s accounting systems did not properly identify and
separate costs. Specifically, on September 1, 2009, the State agency’s accounting department
changed accounting systems used to prepare their CMS-64s. The previous State accounting
system was the Stars system and the current replacement State accounting system is the Edison


Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         3
system. Neither the Stars nor the Edison system properly identified and separated the ICF-IDD
public and private costs from the nursing facility general costs. Stars put ICF-IDD costs under
general nursing home costs, and Edison did not separate State costs from private institution costs
accurately.

In addition, the State agency did not have a process in place to reconcile monthly reports
generated from the MMIS, the new accounting system, and the CMS-64s. The State agency used
the MMIS to process and pay Medicaid claims, but the payment amounts generated by the
MMIS could not be reconciled to the costs reported on its CMS-64s. As a result, the Federal
share of expenditures reported to CMS for ICF-IDDs was not accurate. Nevertheless, this
inaccurate reporting did not result in Tennessee receiving any overpayments from the Federal
Government.

Subsequent to our discussions with the State agency, they submitted a revised CMS-64 with a
prior period adjustment of $19,187,313 ($13,925,132 Federal share) to correctly report ICF-IDD
expenditures for SFYs 2010 and 2011.

                                          RECOMMENDATIONS

We recommend that the State agency work with CMS to:

    •    update the Edison system to ensure that costs reported on the CMS-64s for State-operated
         and privately operated ICF-IDD providers for line 3 (Nursing Facility), line 4a (ICF-
         IDD 1 – Public), and line 4b (ICF-IDD – Private) are correct and

    •    improve controls over CMS-64 accuracy and support by generating and maintaining
         monthly reports from the MMIS and by reconciling the MMIS reports to the accounting
         system that the State uses to prepare its CMS-64s.

STATE AGENCY COMMENTS

In comments on our draft report, the State agency stated that it concurred with the findings
outlined in our draft report. It stated that incorrect mapping of the data led to expenditures
reported on incorrect lines in the CMS-64, but the total dollars reported were correct.
Additionally, it has rectified the observed issues and strengthened its controls over reconciling
the MMIS to the CMS-64.

The State agency’s comments are included in their entirety as Appendix D.




1
 Although both State and Federal laws have replaced the term “mental retardation” with “intellectual disability,” the
phrase “mentally retarded” remains in the title of line 4a and 4b of the CMS-64 at this time.

Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                                4
                    APPENDIX A: AUDIT SCOPE AND METHODOLOGY

SCOPE

Our audit covered per diem payments for Medicaid beneficiaries residing in State-operated
intermediate care facilities for beneficiaries with intellectual and developmental disabilities for
SFYs 2010 and 2011. For this period, the State agency reported Medicaid expenditures on
behalf of 23,569 claims for 1,152 beneficiaries, totaling $439,502,336 ($327,157,494 Federal
Share).

During our audit, we did not review the overall internal control structure of the State agency,
DIDD, or the Medicaid program. Instead, we limited our internal control review to those
controls related to the objective of our audit. While we examined selected expenditures from
facility cost reports, we did not verify the accuracy of all cost information provided by the State.

We performed fieldwork at the State agency, DIDD, and Tennessee’s State Comptroller’s Office
in Nashville, Tennessee, from May through July 2012.

METHODOLOGY

To accomplish our objective, we:

    •   reviewed applicable Federal laws and regulations and the Medicaid State plan;

    •   held discussions with officials from CMS, the State agency, DIDD, and Tennessee’s
        State Comptroller Office to gain an understanding of the State’s rate-setting
        methodology;

    •   obtained MMIS data from the State agency for all ICF-IDD claims paid from July 1,
        2009, through June 30, 2011;

    •   obtained CMS-64 reports from CMS for quarters ending September 30, 2009, through
        June 30, 2011, to determine the Medicaid expenditures that the State agency had reported
        to CMS for ICF-IDD services;

    •   interviewed officials from the State’s largest ICF-IDD (Clover Bottom Developmental
        Center) to understand how an ICF-IDD is managed;

    •   interviewed officials from a privately operated ICF-IDD (Mur-Ci ICF-IDD) to
        understand the facility’s operations;

    •   recalculated the SFY 2010 and 2011 Medicaid daily payment rates for ICF-IDDs using
        cost reports provided by the State;

    •   compared the payment rates on the cost reports for SFYs 2010 and 2011 to the payment
        rates on the State-provided MMIS data;

Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         5
    •   compared MMIS payment rates for the State-operated ICF-IDDs to the MMIS payment
        rates for privately operated ICF-IDDs;

    •   compared the number of patients and types of services provided at the State-operated
        ICF-IDDs with those at the privately operated ICF-IDDs; and

    •   compared expenditures and occupancy levels reported on the cost reports received for the
        State-operated facilities to those from the privately operated facilities.

We conducted this performance audit in accordance with generally accepted government
auditing standards. Those standards require that we plan and perform the audit to obtain
sufficient, appropriate evidence to provide a reasonable basis for our findings and conclusions
based on our audit objectives. We believe that the evidence obtained provides a reasonable basis
for our findings and conclusions based on our audit objectives.




Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         6
                           APPENDIX B: FEDERAL REQUIREMENTS

INTERMEDIATE CARE FACILITY PAYMENT CALCULATION METHODOLOGY

Section 1902(a)(30)(A) of the Social Security Act requires that payment for services be
consistent with efficiency, economy, and quality of care. The Medicaid State plan for medical
assistance provides the methods and procedures related to the utilization of and the payment for
care and services to assure that payments are consistent with efficiency, economy, and quality of
care.

The Tennessee Medicaid program pays providers the amount determined for services furnished
at an intermediate care facility in accordance with the requirements of the Tennessee State plan.
A complex methodology, detailed in Attachment 4.19-D, Part II of the State’s Medicaid plan,
establishes the ICF-IDDs payment rates and sets forth the methods and standards for establishing
the rates as follows:

        II. Nursing Facilities Providing Level I Care
                A. Reimbursement Principles – Effective August 16, 1980, reimbursement
                for Nursing Facility services (Level I care) shall be on a reasonable cost-
                related basis. Participation in the program shall be limited to those
                providers of service who agree by contract to accept as payment in full the
                amounts paid in accordance with the cost rates determined by the methods
                described herein....
                        3. Expenses related to disallowed capital expenditures, such as
                        depreciation, interest on borrowed funds, the return on equity
                        capital in the case of proprietary providers, and repairs are not
                        allowable costs….
                        6. The reimbursement of excessive costs arising from low
                        occupancy is not consistent with the intent of the Intermediate Care
                        Program. Accordingly, the calculated rate, before application of
                        any ceilings, shall be recalculated….
                        8. The payment rate for program services shall not exceed the
                        facility's customary charges to the general public for such
                        services….
                        12. A one year trending factor shall be computed for facilities that
                        have submitted cost reports covering at least six months of
                        program operations. For facilities that have submitted cost reports
                        covering at least three full years of program participation, the
                        trending factor shall be the average cost increase over the three
                        year period, limited to the 75th percentile trending factor of
                        facilities participating for at least three years. Negative averages
                        shall be considered zero. For facilities that have not completed
                        three full years in the program, the one year trending factor shall
                        be the 50th percentile trending factor of facilities participating in
                        the program for at least three years. For facilities that have failed
                        to file timely cost reports, the trending factor shall be zero….

Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         7
                 E. 2. The maximum per diem payment level for [ICF-IDD] shall be
                 reasonable allowable costs or charges, whichever is less.

The rate calculation in the Tennessee State plan specifies that payment rates should be calculated
using the prior year allowable cost, a cost increase factor, a return on equity, an incentive factor
for cost containment, and any allowable costs as may be required by the Commissioner of the
Department of Finance and Administration. CMS has approved numerous State plan
amendments related to this methodology.

STATE REPORTING REQUIREMENTS

With respect to State reporting requirements, the Medicaid Program Integrity Manual, Chapter
11, section 11000, states:

        [T]he Quarterly Medicaid Statement of Expenditures for the Medical Assistance
        Program (Form CMS 64) is a quarterly statement of actual program costs and
        administrative expenditures for which States are entitled to Federal
        reimbursement under the authority of Title XIX of the Act. Form CMS 64 is also
        the vehicle for adjustments made to correct overpayments and underpayments.
        Spending reported on Form CMS 64 is a tabulation of actual, documented
        Medicaid expenditures, drawn from source documents such as invoices, cost
        reports and eligibility records. If a State is unable to document a claim for
        expenditures made in the current quarter, the claim must be withheld until it can
        be supported. The State then reports the amount on a future Form CMS 64 as a
        prior period adjustment. Spending therefore reflects all expenditures made during
        the quarter, not all services used.




Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                         8
       APPENDIX C: RELATED OFFICE OF INSPECTOR GENERAL REPORTS



                           Report Title                                       Report Number         Date Issued
New York Claimed Some Unallowable Costs for Services by New                   A-02-10-01027          08/14/12
York City Providers Under the State’s Developmental Disabilities
Waiver Program
Medicaid Rates for New York State-Operated Developmental Centers              A-02-11-01029             05/17/12
May Be Excessive
Review of Medicaid Payments for Services Under New Jersey’s                   A-02-10-01029             04/20/12
Section 1915(c) Community Care Waiver Program From January 1,
2005, Through December 31, 2007 Audit




Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities
(A-04-12-08016)                                                                                          9
                      APPENDIX D: STATE AGENCY COMMENTS




                                         STATE OF TENNESSEE 

                              DEPARTMENT OF FINANCE AND ADMINISTRATION 

                         DIVISION OF HEALTH CARE FINANCE AND ADMINISTRATION 

                                          BUREAU OF TENNCARE
                                               310 Great Circle Road
                                          NASHVILLE, TENNESSEE 37243




April4, 2013

Report# A-04-12-08016

Ms. Lori S. Pilcher,
Regional Inspector General
Office of Audit Services, Region IV
Office oflnspector General
Department of Health and Human Services
61 Forsyth Street, SW, Suite 3T41
Atlanta, GA 30303

Dear Ms. Pilcher:

I have reviewed the draft audit repmt issued on March 20, 2013, by your office entitled
Tennessee Incorrectly Reported Costs for Individuals with Intellectual and Developmental
Disabilities. I would like to provide the following written comments per your request:

We concur with the findings outlined in the draft report. However, we would like to provide
clarification on the details provided in the section found under the heading Incorrectly Reported
Costs located on page three of the draft report. This section makes multiple references to costs
not being conectly repmted due to costs not being properly identified in the State's accounting
system referred to as both STARS and Edison. The enors actually occurred due to incorrect
mapping in the MMIS claims system and resulted in data being transmitted to the incolTect
program code in the accounting system. The State's accounting system and the MMIS system
reconciled. The incorrect mapping of the data to program codes in the accounting system
led to expenditures reported on incorrect lines in the CMS 64, but the total dollars reported
were correct.

We have rectified the observed issues and strengthened our controls over reconciling the MMIS
to the CMS-64. We have augmented our qua1terly procedures within our federal reporting and
reconciliation section in the Accounting Division that reconcile information fi·om the MMIS
system to the CMS 64 on a quarterly basis to prevent the reporting of information on different
lines from occurring in the future.

Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities   10
(A-04-12-08016)
OIG Audit Response
April4, 2013
Page 2


We appreciate the opportunity to work with your staff and to receive feedback on how to
improve upon our current processes. We welcome any further discussion you may wish to have
on the comments we have included. Please let me know if you need any additional information.

Sincerely,
     ·'"'!   . !/ -~
             ./.·//    i
                 v......,.
        :..:: '<_;;.       ---
Darin J. Gordon, Director
Health Care Finance and Administration


Cc: 	        Jackie Glaze
             Casey Dungan
             Margaret Walker
             Vickie Guye




Tennessee Incorrectly Reported Costs for Individuals With Intellectual and Developmental Disabilities   11
(A-04-12-08016)
